Supreme Court of the United States

Damien Guidry,
Petitioner,
v.
United States of America,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE
I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b) that on this
31st day of August, 2020, true copes of the Petition for Writ of Certiorari, and the
Motion for Leave to Proceed Jn Forma Pauperis were mailed in an envelope to the
Clerk, United States Supreme Court, One First Street, N.E., Washington, D.C. 20543;
and to the Solicitor General of the United States, Room 5614, Department of Justice,
950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001; and to the United
States Attorney’s Office for the Western District of Louisiana, 800 Lafayette Street,

Ste. 2200, Lafayette, LA 70501-6832.

   

EXECUTED this 31st day of August, 2020.

19
